Depatiment of Health and Human Sefices
        OFFICE OF
   INSPECTOR GENERAL




      MEASURING DRUG ABUSE
         TREATMENT COSTS




           MANAGEMENT ADVISORY REPORT
                      OFFICE OF INSPECTOR                  GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT              SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing setices for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION                    AND INSPECTIONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and

program evaluations (called inspections) that focus on issues of concern to the Department,

the Congress, and the public. The findings and recommendations contained in these inspection

reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,

and effectiveness of departmental programs.


OEI’S Atlanta Regional Office staff prepared this report under the direction of Jesse J.

Flowers, Regional Inspector General, and Chris Koehler, Deputy Regional Inspector General.

Principal OEI staff included:


ATLANTA                                                              HEADQUARTERS

Jim Wilson                                                           Ruth Folchman

Jacqueline Watkins

Betty Apt


To obtain a copy of this report, call the Atlanta Regional Office at (404) 331-4108.

Department of Health and Human Services
        OFFICE OF
   INSPECTOR GENERAL




     MEASURING DRUG ABUSE�
        TREATMENT COSTS�




         MANAGEMENT ADVISORY REPORT




          NOVEMBER   1992   0EI-04-91-00430

             EXECUTIVE                        SUMMARY
PURPOSE

To show how effectively the Alcohol, Drug Abuse and Mental Health Administration
measures costs for drug abuse treatment.

BACKGROUND

Public funding of drug abuse treatment programs is largely the responsibility of
individual localities and States. Most Federal funding for drug abuse treatment has
been provided by the Alcohol, Drug Abuse and Mental Health Administration
(ADAMHA). At the time of our review, ADAMHA was undergoing an extensive
reorganization, and effective October 1, 1992, was replaced by the Substance Abuse
and Mental Health Services Administration (SAMHSA). ADAMHA reorganized to
better distinguish its dual service and research missions by focusing on treatment and
services through SAMHSA and shifting research activities to the National Institutes of
Health (NIH). Throughout the repo~ we will refer to ADAMHA instead of
SAMSHA since the review was conducted prior to the effective date of the
reorganization.

In 1981, ADAMHA changed its primary funding method from categorical grants to
block grants. The funds were provided through the Alcohol, Drug Abuse and Mental
Health services (ADMS) block grant program. Block grants allowed States greater
flexibility and required less reporting than categorical grants. Under the block grant
program, States were not required to furnish data such as costs of drug abuse
treatment. With the recent reorganization, the block grant will be split into two
separate grants: one for mental health services and one for substance abuse treatment
and prevention services.

Reliable cost data is needed so that decision-makers can plan effective treatment
programs. Accordingly, Federal legislation was passed in 1988 which increased
ADAMHA’s data ccjllection requirements and States’ block grant reporting
requirements to correct ADAMHA’s lack of drug abuse treatment cost data.

FINDINGS

ALMMEL4 is required to collect drug abuse treatment costs.

The Anti-Drug Abuse Act of 1988 (P.L. 100-690) amended title V of the Public
Health Service Act to require ADAMHA to collect costs on different drug abuse
treatment modalities.
ADAMHA’s data collection system does not provide reliable data for measuring drug
abuse treatment costs.

ADAMHA’s three major sources of data on drug abuse treatment - the State Alcohol
and Drug Abuse Profile (SADAP), the National Drug Abuse and Alcoholism
Treatment Unit Survey (NDATUS) and Drug Abuse Services Research Survey
(DSRS) - are flawed in their cost reporting and limit the completeness, accuracy and
relevancy of cost data. The data sources do not distinguish between reimbursement
and costs, include indirect costs and relate cost data to services provided.


RECOMMENDATIONS

Ultimately, ADAMHA should obtain precise costs on the various drug treatment
programs it supports, Without such cost data, the Department’s ability to assess, plan
and budget effective treatment programs is limited. However, ADAMHA has not
required States and localities to furnish drug abuse treatment cost data. Accordingly,
we recommend that ADAMI-IA

1.	    Aggressively continue to incrementally build a system for measuring drug abuse
       treatment costs.

       Such data is essential for planning and budgeting effective drug abuse
       treatment services. To assure that reliable, useable cost data is available,
       ADAMHA should, as part of its ongoing efforts to establish and clearly define
       appropriate drug abuse treatment protocols:

       a)	    identify in accordance with commonly accepted accounting principles, all
              indirect and direct cost components of various drug abuse treatment
              protocols;

       b)	    develop cost standards for the different types of drug abuse treatment
              protocols;

       c)	    identify and use alternative methods for obtaining reliable drug abuse
              treatment costs;

       d)	    aggregate and summarize provider cost data to establish ranges and
              baselines; and

       e)	    periodically veri& cost data collected to assure its reliability (the cost of
              such validation could be limited through use of sampling techniques).




                                             ii
2.	   As a condition of grant award, require that drug abuse treatment research and
      demonstration grantees who perform clinical effectiveness studies use Federal
      standards for collecting treatment cost data.

ADAMHA’s Office for Treatment Improvement, the National Institute on Drug

Abuse, and others are aware of the problems created by lack of reliable drug abuse

treatment costs and they have remedial initiatives underway.



COMMENTS


We did not receive written comments from the Public Health Service (PHS).

However, in commenting orally, ADAMHA staff agreed with the findings, but stressed

that grantees lack capacity to capture cost data. We did receive written comments

from the Assistant Secretary for Planning and Evaluation and the Counsel to the

Secretary for Drug Abuse and Policy. They agreed that ADAMHA should continue

efforts to improve measurement of drug abuse treatment costs. However, the Counsel

to the Secretary did not believe that all grantees performing clinical effectiveness

studies should be required to collect treatment cost data. We have clarified that we

are not recommending this, but rather that those who do collect cost data should use

Federal standards,





                                          ...
                                          ul
                  TABLE                    OF CONTENTS




EXECUTIVE    SUMMARY


~oDu~oN              ..............................................                                               ..s1


mugs        . . . . . . . . . . . . . . . . . . .+ . . . . ..   ”.   ”.   .”   ”o”o””o””””””o            00”.=-”-5

   ADAMHAs        Requirements         for Data Collection                . . . . . . . . . . . . . . . . . . . . . . . . 5


   ADAMHA’s Data Collection System                     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5



RECOMMENDATIONS                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7



E~NO~         . . . . . . . . . . . . . . . . . . . . . . . . . . . ..””       ”””” ”””” ”””” ”””. ”O”--$ 9



APPENDIX k~W~ONDH                                          REPORT              . . . . . . . . . . . . . . . . . . .. A-l
                         INTRODUCTION


PURPOSE

To show how effectively the Alcohol, Drug Abuse and Mental Health Administration
measures costs for drug abuse treatment.

BACKGROUND

Evoiktion of Dug 11-eatrnentBqpuns

Drug abuse treatment programs have evolved with changes in types of drugs used,
composition of drug abuser populations, and definitions of drug abuse and addiction.

In the early 1900s, drug abuse treatment was directed largely at cocaine and opium
abusers with most treatment provided in medical settings. Between 1910 and 1920,
public perception of drug abuse shifted from treatment of drug abuse as an illness to
punishment of drug abuse as a crime. Enactment of the Harrison Narcotic Act in
1914 signalled a change in approach to treatment of addiction by attempting to control
the sale of drugs defined as narcotic. The U.S. Supreme Court decisions in 1914 and
1916 restricted physicians’ authority to prescribe heroin for addicts. By 1923, the last
public maintenance clinics for heroin addicts had closed. Thereafter, little change
occurred until the 1960s.

Throughout the 1950s and 1960s, drug addiction incidence increased. During the
1960s, treatment practices changed and medical treatment again became the
predominant method of coping with drug abuse.      For example, the Public Health
Service opened treatment hospitals for heroin addicts in Kentucky and Texas. Most
treatment programs that began in the 1960s focused on abusers who used only heroin.

In the 1970s, methadone maintenance and therapeutic treatment communities were
used successfully for heroin addicts. However, as drugs such as cocaine and
amphetamines were recognized to cause dependency, a new approach to treatment
was adopted -- outpatient drug-free programs with emphasis on individual counseling.
As a result, Federal, State and local government funding increased. Private funding
for drug abuse treatment also increased in the late 1970s and 1980s as coverage
became available by private health insurance programsl.

From the 1980s to the present, Federal funding has increased both for treatment and
prevention (enforcement and education). Private funding, along with State and local
governments, continued to pay for most drug abuse treatment. In recent years, private
coverage has begun to decline as insurance cost containment programs reduced
coverage allowances for drug abuse treatment.



                                            1

Generally Accepted Drug Abuse Treatment          Modalities

Modalities can be defined as treatment setting and/or medical protocol used in
treating drug dependency. Drug abuse treatment is now classified into four general
modal~ies2:

       b      Methadone     Maintenance,

       b      Outpatient    non-methadone     (drug-free) treatment,

       b      Residential therapeutic      communities (TC), and

       b      Chemical Dependency (CD) units.

In addition, some professionals consider drug detoxification to be a modality because it
is generally the first step in the treatment process and it requires resources.

However, some controversy exists over whether detoxification should be considered a
distinct modality. For example, a September 1990 Institute of Medicine study,
Treatirw Drug Problems, argued that detoxification is not a treatment modality. The
study noted that, “Detoxification is seldom effective in itself as a modality for bringing
about recovery from dependence, although it can be used as a gateway to other
treatment modalities. Detoxification episodes are often hospital based and may begin
with an emergency treatment of an overdose. However, clinicians generally advocate
that, because of the narrow and short-term focus and very poor outcomes in terms of
relapse to drug dependence, detoxification not be considered a modality of treatment
in the same sense as methadone, TCS, outpatient nonmethadone, and CD programs.”

Federal Agencies Ache      In Dug Abuse lleatment

Within the Department of Health and Human Services, at the time of our review, the

Alcohol, Drug Abuse and Mental Health Administration (ADAMHA) had

responsibility for policy development and funding of State treatment programs.

Effective October 1, 1992, ADAMHA was replaced by the Substance Abuse and

Mental Health Services Administration (SAMHSA). The creation of SAMHSA was

an attempt to address concerns that the institutes within ADAMHA had shifted their

focus over the years from services development to biomedical research. SAMHSA will

focus on treatment and services for people who are mentally ill or chemically

dependent and will comprise three agencies: the Center for Substance Abuse

Treatment--formerly the Office of Treatment Improvement (OTI), the Center for

Substance Abuse--formerly the Office of Substance Abuse Prevention (OSAP), and a

newly created Center for Mental Health Services. Research activities formerly

conducted by ADAMHA’s three research institutes were transferred to the National

Institutes of Health (NIH). Throughout this report, we have referred to ADAMHA

instead of SAMSHA since the review was conducted prior to the effective date of the

reorganization.



                                                2
Also within the Department, the Drug Abuse Policy Office is located in the Office of
the Secretary, increasing the visibility and policy attention given to drug abuse. The
Assistant Secretaries for both Planning and Evaluation, and Management and Budget
work closely together in providing oversight and policy direction in program
expenditures.

One other Federal agency plays an important policy role for drug abuse treatment.
The White House Office of National Drug Control Policy (ONDCP) was created by
the 1988 Anti-Drug Abuse Act and granted statutory authority to develop an annual
National Drug Control Strategy.

Riblk Funding for Drug Abuse i?7eatrnenlI+ograrns

Public funding of drug abuse treatment programs is largely the responsibility of
localities and individual States. In recent years, Federal roles in drug abuse treatment
have been expanding. Most Federal funds for drug abuse treatment have been
provided by ADAMHA through the Alcohol, Drug Abuse, and Mental Health Services
(ADMS) block grant program. With the ADAMHA reorganization, the ADMS block
grant was split into two grants: one for mental health services and one for substance
abuse treatment and prevention services. The reorganization also modified the
formula under which each state’s block grant allotment is determined providing that,
through Fiscal Year 1994, no state may receive less than its Fiscal Year 1991 block
grant allocation. Federal funding to States has increased significantly, representing
about 20 percent of total funding for drug abuse treatment. The ADAMHA
expenditures for Fiscal Year 1991 were approximately $638 million for drug abuse
treatment.

Until 1981, ADAMHA’s primary mechanism for funding drug abuse treatment was
through categorical grants for drug abuse treatment. The categorical grant program
allowed the Federal government to influence the design, implementation, and data
collection methodologies for State and local drug abuse treatment programs. With the
Omnibus Budget Reconciliation Act of 1981, the Congress consolidated all categorical
treatment grants under the ADMS block grant program. The intent of the block grant
program was to enable States to design their own treatment programs and allocate
funds accordingly. Subsequent to development of the block grant program, a number
of drug abuse treatment discretionary grant programs have been developed and
targeted on special populations and needs. Conversion from categorical grants to
block grants allowed the States greater flexibility, but reduced Federal access to drug
abuse treatment data.




                                            3

METHODOIJ3GY

We reviewed principal data collection surveys sponsored by ADAMHA to assess how
well they satisfied certain criteria including cost, timeliness, completeness and
verification. Our primary concern was to determine whether reliable data for
establishing estimates on the costs of drug abuse treatment were present in the current
principal surveys.

Drug abuse treatment costs, for purposes of this report, are defined as direct and
indirect costs related to clinical treatment of drug abusers. This report does not
consider other costs such as those related to diminished productivity or social impact
of drug abuse.

In addition to reviewing existing data bases, we interviewed principal staff in
ADAMHA’s Office for Treatment Improvement and the National Institute on Drug
Abuse.

Our review was conducted in accordance with the I!nterim Stmdarh for Inspectkms
issued by the President’s Council on Integrity and Efficiency.




                                            4

                                   FINDINGS


ADAMHA
     is

       Required         to Collect Drug Abuse Treatment    Costs.

The Anti-Drug Abuse Act of 1988 (P.L. 100-690) amended title V of the Public
Health Service Act to require the Administrator of ADAMHA to collect costs on
different treatment modalities. The Act requires:

      ADAMHA to consult with States and appropriate national organizations to
      develop uniform criteria for collecting drug abuse treatment cost datas;

      States to provide ADAMHA cost data required as a condition for receiving
      their block grantsG;

      ADAMHA to support research on comparable costs and efficacy of different
      treatment modalities; and

      ADAMHA to collect data each year on the national incidence and prevalence
      of the various forms of substance abuses.


ADAMHA’s Data Collection System Does Not Provide Reliable Data for Measuring

Drug Abuse Treatment Costs.


Presently, ADAMHA has three major sources for data collection on drug abuse

treatment. We reviewed the reports from each source. The reports provide

important data, but each is flawed with regard to cost reporting. Specifically, as shown

below, the reports do not include costs of drug abuse treatment.


       State Alcohol and Drug Abuse Profile: Congressional amendments to the
       ADMS block grant program in 1984 required the Department, in consultation
       with national interest groups, to develop model data collection criteria and
       formats to obtain national-level data on services provided, number and types of
       clients served, and total funding9.

       To develop and maintain the required data, the National Institute on Drug
       Abuse (NIDA) provides funds to the National Association of State Alcohol and
       Drug Abuse Directors, Inc. (NASADAD) for collecting and analyzing drug
       abuse treatment data. This system is widely known by its acronym, SADAP.
       States submit data on a voluntary basis. The data, however, is not verified and
       costs of drug abuse treatment are not obtained.




                                            5

      National Drug Abuse and Alcoholism Treatment Unit Snvey              In addition to
      information provided by SADAP, NIDA collects other drug abuse treatment
      data through the National Drug Abuse and Alcohol Treatment Survey
      (NDATUS). NIDA initiated the survey in 1974 and has repeated it
      intermittently since then, The National Drug Abuse Treatment Survey collects
      data on both private and public drug abuse treatment providers. It represents
      the most comprehensive collection of data from the census of drug abuse
      treatment providers, but it does not collect cost data -- it collects data on
      program funding. Further, NDATUS does not include all providers and does
      not verify the data.

      Drug Abuse SeMces Research Suxvey As a condition for continued funding of
      NDATUS for Fiscal Year 1990, the Office of Management and Budget and
      Office of National Drug Control Policy directed NIDA to undertake a separate
      and additional data collection effort -- the Drug Abuse Services Research
      Survey (DSRS)lO. The NIDA’s Financing and Services Research Branch
      gathered a range of data on provider services, clients in treatment, type of
      treatment staff, revenue, etc. This data collection effort was completed in April
      1991. DSRS surveyed a substantial number of providers of drug abuse
      treatment services, but captured limited aggregate costs and revenue data by
      modality. NIDA staff told us that requested information was not generally
      available on costs of treatment by modality at the provider level. NIDA’s data
      would be enhanced substantially by national reporting standards for collecting
      costs of treatment.

In addition to the specific limitations of the data systems discussed above, there are
two general problems with existing cost data.

       Costs Are Understated. In most cases, when financial data is collected, it
       reflects program funding or reimbursement, rather than treatment costs. For
       example, some States reimburse local programs and counties at less than 100
       percent of their actual costs of treatment. Furthermore, States do not always
       include indirect costs in drug abuse treatment allocation, resulting in further
       understating actual costs.

       Funding Data Do Not Relate To Services. Most cost information collected is
       not specifically related to the factors that affect costs, including the setting, type
       and intensity of services provided. Unless cost data is directly associated with
       treatment modality and level of services provided, it has limited utility to policy
       makers.




                                              6

                        RECOMMENDA~ONS


Ultimately, ADA.MHA should obtain precise costs on the various drug treatment
programs it supports. Without such cost data, the Department’s ability to assess, plan
and budget effective treatment programs is limited. However, ADAMHA has not
required States and localities to furnish drug abuse treatment cost data. Accordingly,
we recommend that ADAMHA

1.	    Aggressively continue to incrementally build a system for measuring drug abuse
       treatment costs.

       Such data is essential for planning and budgeting effective drug abuse
       treatment services. To assure that reliable, useable cost data is available,
       ADAMHA should, as part of its ongoing efforts to establish and clearly define
       appropriate drug abuse treatment protocols:

       a)	    identify in accordance with commonly accepted accounting principles, all
              indirect and direct cost components of various drug abuse treatment
              protocols;

       b)	    develop cost standards for the different types of drug abuse treatment
              protocols;

       c)	    identify and use methods for obtaining reliable drug abuse treatment
              costs, such as:

              .-     performing case-studies of providers with focus on units of service
                     related to types of drug abuse and related costs;

              --     obtaining actual verified costs on a significant sample of providers
                     for treatment of various types of drug abuse and types of services;

              --     identifying, analyzing and verifying the validity of existing drug
                     treatment data collection systems to determine if such systems
                     collect cost data and meet standards to be developed by
                     AD/lMm,

              .-     studying possible use of Medicaid data to measure drug abuse
                     treatment costs since Medicaid is an entitlement program and
                     cost data is a program requirement; and

              --     identifying private insurers and Health Maintenance
                     Organizations who have drug abuse treatment cost data which
                     they are willing to share with ADAMHA.



                                             ‘7



                                                                           __—   —
      d)	    aggregate and summarize provider cost data to establish ranges and
             baselines; and

      e)	    periodically verify cost data collected to assure its reliability (the cost of
             such validation could be limited through use of sampling techniques).

2.	   As a condition of grant awar~ require that drug abuse treatment research and
      demonstration grantees who perform clinical effectiveness studies use Federal
      standards for collecting treatment cost data.


ADAMHA’s Office for Treatment Improvement, the National Institute on Drug

Abuse, and others are aware of the problems created by lack of reliable drug

treatment costs and they have remedial initiatives underway.



COMMENTS TO DR.AFP MANAGEMENT                     ADVISORY REPORT


In meetings with ADAMHA staff, they generally agreed with the management

advisory report. They expressed a desire that the report elaborate on their grantees

present lack of capacity to capture and report cost data. Our limited review did not

provide sufficient data for us to comment on grantees’ capacity to collect data. While

we understand the concern about capacity, we believe reliable program cost is

information grantees need to plan effective operations.


The Assistant Secretary for Planning and Evaluation (ASPE), and the Counsel to the

Secretary for Drug Abuse Policy commented on the draft management advisory

report. Although we have not received written comments from ADAMH~ we have

discussed the findings and recommendations with them.


The ASPE agreed with our recommendations, and asked about the reasonableness of

using NDATUS data for budgeting purposes. Since the NDATUS does not collect

cost data, we believe its use in developing budget estimates is limited. However, that

issue was not included in the scope of our inspection.


The Counsel to the Secretary for Drug Abuse Policy concurred with our

recommendation to incrementally build a system for measuring drug abuse treatment

costs but did not agree about mandating the collection of cost data through clinical

effectiveness studies. He suggested possible options for collecting treatment cost data

which ADAMHA plans to include in future demonstration programs, We agree there

are many other appropriate means of collecting data. We did not mean that all

grantees should be required to collect such data but that those who do should use

Federal standards.





                                             8

                                            ENDNOTES



1.�     Jaffe and Musto, 1987 in Hubbard, R. 1989 DRUG ABUSE TREATMENT A National Study
        of lZ&etiveness.Chapel Hill, N.C. : University of North Carolina Press, 3-5.

2.	     Gerstein and Harwood, et al. 1990. TREATING DRUG PROBLEMS. Committee for the
        Substance Abuse Coverage Study, Division of Health Care Services, INSTITUTE OF
        MEDICINE. Washington, D.C. : National Academy Press, 12.

3.      Unpublished. Fiscal Year 1991 Department of Health and Human Services, Anti-Dru~ Abuse
        m.	        ADAMHA’s Office for Treatment Improvement (OTI)- includes ADMS Block
        Grants, Waiting List Grants, Crisis Areas Grants, Treatment Improvement, OTI Management,
        Homeless Demonstration Grants and NIDA Research Demonstration Grants. Source is the
        Office of The Assistant Secretary for Management and Budget, Department of Health and
        Human Services.

4.	     Section 2052 of the Anti-Drug Abuse Act (P.L. 100-690) amended Part A of title V of the
        Public Health Act by adding a new section-- Section 509D. Section 509D (c)(G) refers to
        “costs of the different types of treatment modalities.”

5.	     Section 2052 of the Anti-Drug Abuse Act amended Part A of title V of the Public Health
        Service Act to add Section 509D(d) which specifies “consultation with the States and with
        appropriate national organizations, the Administrator shall develop uniform criteria for the
        collection of data...”

6.	     Section 2034 of the Anti-Drug Abuse Act amended Section 1916(c) of the Public Health
        Service Act by adding sections (16)-(21). Section 1916(c)(2) specifies “The State agrees that
        the State will provide to the Secretaty any data required by the Secretary pursuant to section
        509D and will cooperate with the Secretary in the development of uniform criteria for the
        collection of data pursuant to such section.”

7.	     Section 2012 of the Anti-Drug Abuse Act describes purposes of this Act. Section 2012(6)
        states as one of its purposes-- “to increase understanding about the extent of alcohol abuse and
        other forms of drug abuse by expanding data collection activities and supporting research on
        the comparative cost and efficaq of substance abuse prevention and treatment services.”

8.	     Section 2052 of the Anti-Drug Abuse Act added Section 509D to the Public Health Service Act
        and specifies “Sec. 509D. (c)(2) Annual surveys shall be carried out in the collection of data
        under this section. Summaries and analyses of the data collected shall be made available to the
        public.”

9.	     Kusserow, Richard P. 1989. An Assessment of Data Collection for Alcohol, Drug Abuse, and
        Mental Health SeMces. Washington, D.C. : Office of the Inspector General, 1-2.

 10.	   Batten, et al., Bigel Institute for Health Policy, Brandeis University, 1991. DRUG SERVICES
        RESEARCH SURVEY, Phase I Final Report: Non-Correctional Facilities, NIDA Contract
        Number 271-90-8319/1.




                                                    9

  APPENDIX         A



COMMENTS ON DRAFI’ REPORT




            A-1
-., .. ...,



  42
  --%’
        f
                      PEP.4RT.MENTOF HE.\LTH& HIJ,MANSERVICES
                                       ._-—

                                                                              Otfice of the Swemfy


                                                                                                              ,
‘.-.,.a
   L&                                                                         Waslmgton.    D.C.   20201      ,
                                                                                                       /
                                                        Juli   ] ] ]~	      LO
                                                                                                 “*
                                                                            PIW
                                                                            DIG-AS
              ---
                                                                            DIG-EI                     1/

                                                                            DIG-01                        /       e
               To :             Richard P. Kuss”erow	                                                  ,/
                                                                            ASG36P
                                Inspector General                                         /

                                                                            OGCJIG       ,/

               F?.GK:           Assistant Secretary for                     Exac

                                Fl~nning and Evaluation
                    ~ATE SENT ‘<~


               5~~7~~~     :�   GIG Mariagement Advisory Report:     “Measuring Dmg        Abuse

                                “rreat~ent costs,~~ OEI-04091-00430


               Thank you for the opportunity to review the above named draft

               management report.   I think that the report helps to highlight

               the limitations of the existing financial data  on drug abuse
               treatment available to the Alcohol, Dng Abuse and Mental Health

               Administration’s  (~~),     and provides constructive suggestions

               for how to begin to improve our information.


               It.will ‘cake some time, however, to imDrove the financial data
               available on drug treatment costs.    Consequently, it would be
               helpful from a pclicy perspective if the report could include a
               discussion of how the existing National Drug and Alcohol
               Treatinent Utilization Suney   (NDATUS) data available    on funding
               sources can be used to develop budget estimates.       As you are
               aware, we currently use this data to develop the estimates for
               the costs of drug treatment slots.    It would be helpful to
               understand the reasonableness of such use and the limitations of
               the data for budgeting purposes.    In addition, if you have
               suggestions for ways we can improve our estimating process using
               the existing available data sources this would also be of
               assistance.

               If you have any questions,         please call Elise Smith at 245-1870.


                                                                                           ..





               cc:       Emilie Baebel             --
                                           ..-

                          .,

                           .





                                          L

      “-”%
                                                                                              to ttte

J@
                                                                                     Counsel        Secretary
                DEPARTMENT        OF IiE.4LTH
                                            & HUMAN SERVICES                         tor Drug Abuse Policy

$.\
  “%ni~                                                                              Wadwlgton,D.c. 20201
                                                           July    30, 1992
                                                                                               .


              MEMORNJfYJkt TO RUCHARDP. KUSSEROW




                                                  ~di,
                              INSF~TOR GENERAL

                                                      A


              FRCM:�               MARKBARNES
                                   CO-TO   THE


              SUKECT:              OIG Management     A    isory    Report:   “Measuring            Drug   Abuse
                                  - Treatment   Costs”,!“ OE1-04-91-00430




                      I have reviewed the above-mentioned draft report and concur in part with your

              recommendations.       I do not, however, concur with your second recommendation which
              seems to indicate that all grantees performing ciinical effectiveness studies must collect

              treatment cost data. I suggest that we not mandate the cohction of treatment cost data
              through clinicai effectiveness studies.    There are many more appropriate vehicies for
              the collection of treatment cost data.


                      With regard to the section on findings, I suggest that you inciude a short
              reference to the Services Research Outcome Study (SROS), a follow-up component to the
              Drug Abuse SeMces Research Sumey. It is my understanding that SROS will collect
              cost data on treatment sefvices. Additionally, I recommend that you cunsider mentioning

              the ADMS block grant forms as an additional possible source of cost information.

              Although the Slates are not currently required to complete the more detaiied set of
              forms, some States have agreed to comply on a voiuntary basis. For these Slates. the
              Office of Treatment Improvement has been able to collect some pertinent cost
              information.


                     Thank you for the opportunity to review this report. {fYOUhave any Westions!
              please fxntact either Sarah Vogeisberg or myself at (202) 690-6641.




             1(3 ~
             mm               t                                                                             . .
                                                                                                               d
             DIGAO                                                                                            .-.-
             DIC3-EI      ~
             DIG-01                P

             AIG-hfP

             OGC/TG
                                                                                        -—

                                                                                                .           -:

             ~x s~~

                                                                                                            —

             DATE SENT =$=                                                                                   . .

                                                                                                            ..,1     . .

                                                                                                            ‘-.-’

